Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   COMPARISON OF MEDICAID 

    FEDERAL UPPER LIMIT 

    AMOUNTS TO AVERAGE 

    MANUFACTURER PRICES





                    Daniel R. Levinson

                    Inspector General 


                       June 2005 

                     OEI-03-05-00110

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
Δ       E X E C U T I V E                                         S U M M A R Y                                   



                               OBJECTIVE
                               To (1) determine how prices for drugs set under the Medicaid Federal
                               upper limit program compare to reported average manufacturer prices
                               (AMP) and (2) estimate the savings that could be achieved if Federal
                               upper limit amounts were based on reported AMPs.


                               BACKGROUND
                               The Federal upper limit program was put in place to ensure that the
                               Federal Government acts as a prudent payer by taking advantage of
                               current market prices for multiple-source drugs. Statutory and
                               regulatory criteria generally require the Centers for Medicare &
                               Medicaid Services (CMS) to include a drug on the Federal upper limit
                               list if: (1) at least three versions of the drug are rated as therapeutically
                               equivalent by the Food and Drug Administration (FDA), and (2) the
                               drug has at least three suppliers listed in current editions of national
                               compendia. The Federal upper limit amount for a drug is set at
                               150 percent of the published price for the least costly, therapeutically
                               equivalent product found in national compendia plus a reasonable
                               dispensing fee.

                               For the covered outpatient drugs of a manufacturer to be eligible for
                               Federal matching funds under Medicaid, the manufacturer must enter
                               into a rebate agreement with CMS and pay quarterly rebates to State
                               Medicaid agencies. Under these rebate agreements and the law,
                               manufacturers must provide CMS with the AMPs for each of their
                               covered drugs on a quarterly basis. Pursuant to Federal statute, AMP
                               is the average price paid to a manufacturer for a drug in the United
                               States by wholesalers for drugs distributed to the retail pharmacy class
                               of trade, net of customary prompt pay discounts. The Medicare
                               Prescription Drug, Improvement, and Modernization Act of 2003
                               recognizes AMP as a potential measure to be substituted in Medicare
                               reimbursement calculations.

                               We obtained the third-quarter 2004 version of the Federal upper limit
                               list and third-quarter 2004 AMP data from CMS. For each drug on the
                               Federal upper limit list, we determined the minimum AMP, average
                               AMP, and maximum AMP. To follow current procedures prescribed by
                               Federal regulation, we limited the calculation to products that (1) were
                               rated therapeutically equivalent by FDA, and (2) were available in the
                               most commonly listed package size. We also limited the analysis to

O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   i
E X E C U T I V E                                     S U       M M A R Y


                                products with Medicaid utilization in the third quarter of 2004. We
                                calculated the percentage difference between the Federal upper limit
                                amount and the minimum, average, and maximum AMPs.

                                To determine the potential implications of using AMPs rather than
                                published prices to set Federal upper limit amounts, we multiplied the
                                minimum and average AMPs for the drugs by 150 percent. We then
                                subtracted 150 percent of the minimum and average AMPs from the
                                average Medicaid reimbursement amount in the third quarter of 2004.
                                Finally, we multiplied the difference by the number of units of the drug
                                product reimbursed during the time period.


                                FINDINGS
                                Federal upper limit amounts were five times higher than the average
                                AMP. Overall, Federal upper limit amounts were five times higher than
                                the average AMPs for generic drug products in the third quarter of
                                2004. Among individual generic drug products, Federal upper limits
                                exceeded average AMPs by as much as 19 times. During the same
                                period, the Federal upper limit amount was, on average, 22 times
                                higher than the lowest reported AMP, and usually exceeded even the
                                highest reported AMP.
                                Medicaid could save hundreds of millions of dollars per year by
                                basing Federal upper limit amounts on reported AMPs. If Medicaid
                                based Federal upper limit amounts on 150 percent of the average AMP,
                                the financial implications would be substantial. In the third quarter of
                                2004, the program could have saved an estimated $161 million (or
                                almost $650 million in 1 year) had Medicaid used the average AMP
                                instead of the lowest published price when calculating Federal upper
                                limits.

                                Furthermore, if Medicaid based Federal upper limit amounts on
                                150 percent of the lowest reported AMP rather than 150 percent of the
                                lowest published price, the program may have saved up to $300 million
                                in just one quarter of 2004. This figure represents 75 percent of the
                                $396 million spent on generic versions of Federal upper limit drugs
                                during that period. Assuming spending in the following three quarters
                                would be similar to the previous quarter, basing Federal upper limit
                                amounts on 150 percent of the lowest reported AMP rather than
                                150 percent of the lowest published price could save Medicaid up to
                                $1.2 billion per year.



 O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   ii
E X E C U T I V E                                     S U       M M A R Y 




                                RECOMMENDATION
                                The Centers for Medicare & Medicaid Services should work with
                                Congress to set Federal upper limit amounts that more closely
                                approximate acquisition costs. In the past several months, the
                                President, Congress, and individual Medicaid State agencies have
                                expressed renewed interest in reducing excessive Medicaid
                                reimbursement for prescription drugs. The original purpose of the
                                Federal upper limit program was to do just that by allowing Medicaid to
                                take advantage of current market prices for generic drugs. However,
                                the applicable regulation requires Federal upper limit amounts to be
                                based on prices published in the national drug compendia. As studies
                                by the Office of Inspection General and numerous other entities have
                                shown, published prices for many products bear little or no resemblance
                                to the actual prices paid by providers. Because the already inflated
                                published prices are multiplied by 150 percent when calculating Federal
                                upper limit amounts, Medicaid reimbursement for qualified products
                                has the potential to greatly exceed acquisition costs. The findings of
                                this report further illustrate this point.
                                We understand that pharmacies need to make some profit from the
                                drugs they supply. In addition, we realize that reimbursement
                                amounts should be sufficient to provide pharmacies with incentives to
                                dispense lower-cost generic drugs rather than the more expensive
                                brand name versions. However, that Federal upper limit amounts are
                                typically 5 times higher (and as much as 19 times higher) than the
                                average AMP seems excessive.
                                Therefore, we recommend that CMS work with Congress to set Federal
                                upper limit amounts that more closely approximate acquisition costs.
                                At a time when States are trying to most effectively allocate resources
                                due to shrinking Medicaid budgets, revised Federal upper limit laws
                                and regulations would allow States and the Federal Government to
                                share in the cost savings that should be associated with lower-priced
                                generic drugs. Subsequently, these cost savings should help States to
                                continue providing needed care to Medicaid beneficiaries.
                                Agency Comments
                                CMS concurred with our recommendation, stating that Congress should
                                take action to ensure that Medicaid reimbursement amounts more
                                closely relate to actual transaction prices.



 O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   iii
Δ   T A B L E           O F           C O N T E N T S                                





         EXECUTIVE SUMMARY ......................................... i



         INTRODUCTION ................................................ 1




         FINDINGS

                    Federal upper limits five times higher than the average AMP . . . . 8 


                    Savings from using AMPs could exceed $1 billion per year . . . . . . 9 



         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 




         APPENDICES
                    A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                    B: Centers for Medicare & Medicaid Services Comments . . . . . . . 16




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

Δ       I N T R O D U C T I O N                                               



                               OBJECTIVE
                               To (1) determine how prices for drugs set under the Medicaid Federal
                               upper limit program compare to reported average manufacturer prices
                               (AMP) and (2) estimate the savings that could be achieved if Federal
                               upper limit amounts were based on reported AMPs.


                               BACKGROUND
                               Medicaid Program.
                               Medicaid is a jointly funded, Federal and State health insurance
                               program for certain low-income and medically needy people. Individual
                               States establish eligibility requirements, benefits packages, and
                               payment rates for their Medicaid programs under broad Federal
                               standards administered by the Centers for Medicare & Medicaid
                               Services (CMS). Medicaid requirements mandate that States provide
                               basic services to beneficiaries to receive Federal matching funds. States
                               may also receive Federal funding if they provide other optional services.
                               One universally offered optional service is prescription drug coverage.
                               All 50 States and the District of Columbia currently offer prescription
                               drug coverage under the Medicaid program. In calendar year 2003,
                               CMS estimates that Medicaid payments for prescription drugs totaled
                               over $34 billion.1
                               Medicaid Drug Reimbursement Methodology.
                               Each State is required to submit a Medicaid State plan to CMS
                               describing its payment methodology for covered drugs. Federal
                               regulations require, with certain exceptions, that each State’s
                               reimbursement for a drug not exceed the lower of its estimated
                               acquisition cost plus a reasonable dispensing fee or the provider’s usual
                               and customary charge to the public for the drug.

                               CMS allows States flexibility to define estimated acquisition cost. Most
                               States base their calculation of estimated acquisition cost on a drug’s
                               average wholesale price (AWP) discounted by a certain percentage. As
                               of the first quarter of 2005, this discount ranged from 5 to 50 percent of
                               AWP. A small number of States use wholesale acquisition costs plus a
                               percentage markup rather than, or in addition to, discounted AWPs
                               when determining estimated acquisition cost.


                               1 This amount includes both the Federal and State shares of payments. Rebates collected
                                 under the Medicaid Drug Rebate program have not been subtracted from the total.



O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   1
I N T R O D                     U C T             I O N

                                 For certain drugs, States also use the Federal upper limit and/or State
                                 maximum allowable cost programs in determining reimbursement
                                 amounts. CMS has established Federal upper limit amounts for more
                                 than 400 drugs. In addition, numerous States have implemented a
                                 maximum allowable cost program to limit reimbursement amounts for
                                 certain drugs. Individual States determine the types of drugs that are
                                 included in their maximum allowable cost programs and the methods by
                                 which the maximum allowable cost for a drug is calculated.

                                 In summary, States use a variety of mechanisms when setting drug
                                 reimbursement amounts. In most cases, States reimburse for a drug at
                                 the lower of the estimated acquisition cost, the Federal upper limit
                                 amount, or the State maximum allowable cost, plus a reasonable
                                 dispensing fee.
                                 Federal Upper Limit Program.
                                 According to CMS’s “State Medicaid Manual,” the Federal upper limit
                                 program was created to ensure that the Federal Government acts as a
                                 prudent payer by taking advantage of current market prices for
                                 multiple-source drugs. Under 42 CFR § 447.332, CMS is to establish a
                                 Federal upper limit amount for a drug when: (1) all formulations of a
                                 drug have been rated as therapeutically equivalent by the Food and
                                 Drug Administration (FDA), and (2) at least three suppliers of the drug
                                 are listed in current editions (or updates) of published compendia of cost
                                 information for drugs available for sale nationally. The Omnibus
                                 Budget Reconciliation Act of 1990 (OBRA ’90) established new criteria
                                 requiring a drug to be included on the Federal upper limit list when
                                 three or more versions of a drug had been rated therapeutically and
                                 pharmaceutically equivalent by FDA, regardless of the ratings of other
                                 versions.2 FDA designates drugs that are therapeutically equivalent as
                                 “A-rated.”

                                 Federal regulation (42 CFR § 447.332) sets the Federal upper limit
                                 amount at 150 percent of the published price for the least costly,
                                 therapeutically equivalent product that can be purchased by
                                 pharmacists in quantities of 100 tablets or capsules plus a reasonable


                                 2 According to the “State Medicaid Manual,” the language of OBRA ’90 “augments” the
                                   upper limits established by the regulation and creates “new criteria” for adding drugs to
                                   the Federal upper limit list. CMS has not modified the language of the regulation since it
                                   was promulgated in 1987, nor has the regulation been withdrawn. In practice, CMS relies
                                   on the language of the regulation and the OBRA ’90 provisions in establishing Federal
                                   upper limits.



 O E I - 0 3 - 0 5 - 0 0 11 0    C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   2
I N T R O D                     U C T             I O N

                                 dispensing fee. If the drug is not typically available in quantities of
                                 100 or if the drug is a liquid, the Federal upper limit amount is based on
                                 a commonly listed size.

                                 CMS applies an additional standard in determining which drugs should
                                 be subject to Federal upper limits. According to CMS staff, only drugs
                                 for which a Federal upper limit could potentially lead to savings should
                                 be included on the Federal upper limit list. Therefore, if a drug does not
                                 have a published price that, when multiplied by 150 percent, is lower
                                 than the AWP, CMS does not include the product.

                                 CMS publishes the Federal upper limit list on its Web site at
                                 www.cms.hhs.gov/medicaid/drugs/drug10.asp and in the “State
                                 Medicaid Manual.” Any revisions to the Federal upper limit list are
                                 typically noted on the Web site as well. CMS establishes an upper limit
                                 for specific forms and strengths for each multiple-source drug on the
                                 list. The Federal upper limit list also provides the source of the pricing
                                 information used to calculate the upper limit amount for each drug.
                                 The Medicaid Drug Rebate Program and Average Manufacturer Price.
                                 For the covered outpatient drugs of a manufacturer to be eligible for
                                 Federal matching funds under Medicaid, section 1927(a)(1) of the Social
                                 Security Act mandates that drug manufacturers enter into rebate
                                 agreements with CMS and pay quarterly rebates to States. Under these
                                 rebate agreements and the law, manufacturers must provide CMS with
                                 the AMP for each of their covered drugs on a quarterly basis. Pursuant
                                 to section 1927(k)(1) of the Social Security Act, AMP is defined as the
                                 average price paid to a manufacturer for a drug in the United States by
                                 wholesalers for drugs distributed to the retail pharmacy class of trade,
                                 net of customary prompt pay discounts. The AMP is calculated as a
                                 weighted average of prices for all of a manufacturer’s package sizes of a
                                 drug sold during a given quarter. Section 1927(b)(3)(D) of the Social
                                 Security Act requires that, subject to certain exceptions, AMPs reported
                                 to CMS not be publicly disclosed.

                                 In a December 2004 report, the Congressional Budget Office used AMP
                                 to estimate what pharmacies pay to acquire drugs. While the
                                 acquisition costs for pharmacies that buy through wholesalers rather
                                 than directly from manufacturers may exceed AMP, the wholesaler
                                 markup is estimated to be a small proportion (approximately 3 percent)




 O E I - 0 3 - 0 5 - 0 0 11 0    C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   3
I N T R O D                     U C T             I O N

                                 of the actual price.3 The Medicare Prescription Drug, Improvement,
                                 and Modernization Act of 2003 (MMA) also recognizes AMP as a
                                 potential measure to be substituted in Medicare reimbursement
                                 calculations.4
                                 Related Work by the Office of Inspector General.
                                 In December 2004, the Office of Inspector General (OIG) issued
                                 “Addition of Qualified Drugs to the Medicaid Federal Upper Limit List”
                                 (OEI-03-04-00320) as requested by a Congressional subcommittee. OIG
                                 found that CMS does not add qualified drugs to the Federal upper limit
                                 list in a timely manner. Of the 252 first-time generic drugs approved
                                 between January 2001 and December 2003, 109 drugs met the criteria
                                 for inclusion on the Federal upper limit list; however, only 25 of these
                                 drugs were actually added. For the 25 that were added, CMS took an
                                 average of 36 weeks to place the products on the Federal upper limit list
                                 once they were qualified for inclusion. CMS’s not adding qualified drugs
                                 in a timely manner cost the Medicaid program an estimated
                                 $167 million between 2001 and 2003. We recommended that CMS
                                 establish an administrative procedure and schedule to govern the
                                 determination and publication of Federal upper limits.

                                 In February 2004, OIG issued “Omission of Drugs from the Federal
                                 Upper Limit List in 2001” (OEI-03-02-00670). OIG found that 90 drug
                                 products were not included on the Federal upper limit list in 2001
                                 despite meeting the criteria established by Federal law and regulation.
                                 Medicaid could have saved $123 million in 2001 by adding 55 of the
                                 90 drug products to the Federal upper limit list. OIG recommended
                                 that CMS take steps to ensure that all drugs meeting the criteria are
                                 included on the Federal upper limit list.

                                 In October 2003, OIG issued “State Strategies to Contain Medicaid Drug
                                 Costs” (OEI-05-02-00680). OIG found that States employ three main
                                 drug cost containment strategies: (1) limiting Medicaid reimbursement
                                 for drugs, (2) shifting use from higher to lower cost drugs, and
                                 (3) limiting the amount of prescription drugs a beneficiary can obtain.
                                 States reported facing challenges in their attempts to maximize drug


                                 3 As reported by the National Association of Chain Drug Stores in the Congressional Budget

                                   Office report, “Medicaid’s Reimbursement to Pharmacies for Prescription Drugs.”
                                 4 Medicare typically uses manufacturer-reported average sales price (ASP) plus 6 percent as

                                   the basis for drug reimbursement. However, if the ASP for a drug exceeds the AMP by a
                                   threshold percentage, section 303 of MMA allows the program to base reimbursement on
                                   103 percent of AMP instead. In 2005, this threshold percentage is 5 percent.



 O E I - 0 3 - 0 5 - 0 0 11 0    C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   4
I N T R O D                     U C T             I O N

                                 cost savings, including a lack of accurate drug price information and
                                 stakeholder opposition to cost containment efforts.
                                 Recent Interest in Medicaid Drug Pricing Issues.
                                 In December 2004, the United States House Committee on Energy and
                                 Commerce Subcommittee on Oversight and Investigations held a
                                 hearing entitled “Medicaid Prescription Drug Reimbursement: Why
                                 the Government Pays Too Much.” Representatives from OIG, CMS,
                                 several State Medicaid agencies, and the drug industry testified at this
                                 hearing. The role that Federal upper limits play in reducing costs for
                                 prescription drugs was a key area of interest to the subcommittee.

                                 In addition, the President’s 2006 budget proposes changes that would
                                 cause Medicaid reimbursement amounts to more closely approximate
                                 pharmacy acquisition costs. Specifically, the budget recommends that
                                 Medicaid reimbursement for prescription drugs be at 106 percent of a
                                 drug’s ASP.

                                 Prior to 2005, Medicare, like Medicaid, based drug reimbursement on
                                 published AWPs. However, due in part to numerous reports by OIG
                                 and the Government Accountability Office that found that AWPs were
                                 significantly inflated, Congress required that Medicare begin basing
                                 reimbursement amounts on 106 percent of ASP instead. Section 303 of
                                 MMA defines ASP as the manufacturer’s sales to all purchasers (with
                                 certain exemptions) divided by the number of units sold. The ASP is to
                                 be net of chargebacks, discounts, rebates, and other price concessions.
                                 The ASPs are reported to CMS by drug manufacturers.


                                 METHODOLOGY
                                 Identifying Drugs on the Federal Upper Limit List.
                                 We obtained a list of drugs subject to Federal upper limits as of the
                                 third quarter of 2004 from the CMS Web site. Using data obtained from
                                 the publisher of a national drug compendium, we compiled a list of all
                                 the national drug codes (NDC) associated with generic versions of each
                                 drug product.
                                 Obtaining Medicaid Utilization Data.
                                 We downloaded 50 State Medicaid payment and utilization files for 2004
                                 from CMS’s Web site. We limited our analysis to utilization occurring in




 O E I - 0 3 - 0 5 - 0 0 11 0    C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   5
I N T R O D                     U C T             I O N

                                 the third quarter of 2004.5 We calculated the average Medicaid
                                 reimbursement amount for each of the 415 drugs on the Federal upper
                                 limit list by dividing the total reimbursement for the product (net of
                                 dispensing fees) by the total number of units reimbursed.6
                                 Determining AMPs for Drugs Subject to Federal Upper Limits.
                                 We obtained third-quarter 2004 AMP data from CMS. We matched the
                                 AMP data with the Medicaid utilization data to verify that all products
                                 on which the comparisons would be made had actually been reimbursed
                                 by Medicaid. Consistent with Federal regulations, we removed any
                                 NDCs that represented drug products that were not A-rated, and also
                                 removed any NDCs that did not match the most commonly listed
                                 package size. We then determined the minimum, average, and
                                 maximum AMPs among the remaining NDCs for each of the drug
                                 products. We did not verify that the AMPs reported to CMS were
                                 correct.
                                 Comparing Federal Upper Limit Amounts to AMPs.
                                 We compared the third-quarter 2004 Federal upper limit amounts to the
                                 third-quarter 2004 AMPs. We calculated the percentage difference
                                 between the Federal upper limit amount and the minimum, average,
                                 and maximum AMPs for each of the 415 drug products under review.
                                 We then calculated an overall percentage difference weighted by
                                 Medicaid reimbursement. We will not be reporting the actual dollar
                                 differences between the Federal upper limit amounts and AMPs for
                                 individual drug products due to confidentiality issues.
                                 Estimating Potential Savings.
                                 To determine the potential impact of using AMPs rather than published
                                 prices to set Federal upper limit amounts, we:

                                 (1) multiplied the minimum and average AMPs for the drugs on the
                                     Federal upper limit list by 150 percent (consistent with current
                                     regulation),




                                 5 Third-quarter data for seven States were not yet available, and an additional State had no
                                   data in the system because its drug benefit is provided completely through managed care
                                   organizations. Therefore, our analysis is limited to information from 42 States and the
                                   District of Columbia.
                                 6 As of the third quarter of 2004, there were 419 drug products on the Federal upper limit
                                   list. Four of these drug products were removed from the analysis for reasons detailed in
                                   Appendix A, leaving 415 drugs in our review.



 O E I - 0 3 - 0 5 - 0 0 11 0    C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   6
I N T R O D                     U C T             I O N

                                 (2) subtracted 150 percent of the minimum and average AMPs from the
                                     average Medicaid reimbursement amount in the third quarter of
                                     2004, and7
                                 (3) multiplied the difference calculated in step two by the number of
                                     units of the drug product reimbursed during the time period.

                                 A complete discussion of our methodology is presented in Appendix A.
                                 This evaluation was conducted in accordance with the “Quality
                                 Standards for Inspections” issued by the President’s Council for
                                 Integrity and Efficiency and the Executive Council for Integrity and
                                 Efficiency.




                                 7 In calculating potential savings, we used average Medicaid reimbursement amounts
                                   rather than Federal upper limit amounts. Because of State maximum allowable cost
                                   programs, some States may reimburse substantially less than the Federal upper limit
                                   amount for certain drugs. Therefore, using Federal upper limit amounts in our
                                   calculations would tend to exaggerate potential savings. Using average Medicaid
                                   reimbursement amounts provides a much more accurate estimate of the potential savings.



 O E I - 0 3 - 0 5 - 0 0 11 0    C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   7
Δ       F I N D I N G S 



                                                                     Overall, Federal upper limit
Federal upper limit amounts were five times
                                                                     amounts were five times higher
               higher than the average AMP                           than the average AMPs for
                                                                     generic drug products in the third
                               quarter of 2004. Among individual generic drug products, Federal
                               upper limits exceeded average AMPs by as much as 19 times ($1.20 per
                               tablet compared to $0.063 per tablet). For 327 of the 415 drug products
                               reviewed, the Federal upper limit amount was at least double the
                               average generic AMP, with Federal upper limits being more than
                               4 times higher in 131 cases. The Federal upper limit amount was below
                               the average AMP for just 13 of the 415 drug products during the third
                               quarter of 2004.

                               Among the 20 reviewed drug products with the highest total Medicaid
                               reimbursement, the Federal upper limit amount was between 2 and
                               14 times higher than the average generic AMP during the third quarter
                               of 2004.8 Ten of the top twenty drug products had a Federal upper limit
                               amount that was at least 5 times more than the average generic AMP.
                               On average, Federal upper limit amounts were more than 20 times higher
                               than the lowest reported AMPs.
                               During the third quarter of 2004, the Federal upper limit amount for
                               415 drug products was, on average, 22 times higher than the minimum
                               generic AMP reported by drug manufacturers. For 29 drug products,
                               the Federal upper limit amount exceeded the minimum reported AMP
                               for generic versions by at least 40 times. All but 12 of the 415 drug
                               products had Federal upper limit amounts that were at least double the
                               minimum generic AMP.
                               For the 20 drug products with the highest total Medicaid
                               reimbursement, Federal upper limit amounts ranged from 4 times more
                               than the minimum AMP up to 61 times more than the minimum AMP.
                               The drug with highest total reimbursement during the third quarter of
                               2004, albuterol inhalation aerosol, had a Federal upper limit amount
                               that was 36 times higher than the lowest reported generic AMP.




                               8 These 20 drugs accounted for 36 percent of total Medicaid reimbursement for generic
                                 versions of Federal upper limit drugs during the third quarter of 2004. A list of these
                                 drugs is presented in Table 1 on page 10.



O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   8
F    I N D I N G                    S

                                   Federal upper limit amounts were usually greater than even the highest
                                   reported AMPs.
                                   On average, Federal upper limit amounts were more than double the
                                   highest reported generic AMPs during the third quarter of 2004. Only
                                   75 of the 415 drugs under review had a Federal upper limit amount that
                                   was less than the maximum AMP. In the case of the drug product with
                                   the highest total Medicaid reimbursement, albuterol inhalation aerosol,
                                   the Federal upper limit amount was approximately five times more
                                   than the maximum reported AMP among generic versions of the
                                   product.

     Medicaid could save hundreds of millions of                          If Medicaid based Federal upper
    dollars per year by basing Federal upper limit                        limit amounts on 150 percent of
                                                                          the average AMP, the program
                      amounts on reported AMPs
                                                                          could have saved an estimated
                                   $161 million in the third quarter of 2004.9 Assuming spending in the
                                   following three quarters would be similar to the previous quarter,
                                   basing Federal upper limit amounts on 150 percent of the average AMP
                                   rather than 150 percent of the lowest published price could save
                                   Medicaid almost $650 million per year.10 Table 1 (see page 10) shows
                                   the potential savings for the 20 drugs with the highest total Medicaid
                                   reimbursement in the third quarter of 2004. The potential savings for
                                   these 20 drugs alone exceeded $75 million for the quarter.

                                   If Medicaid based Federal upper limit amounts on 150 percent of the
                                   lowest reported AMP rather than 150 percent of the lowest published
                                   price, the program may have saved up to $300 million in just a single
                                   quarter. This figure represents 75 percent of the $396 million spent on
                                   generic versions of Federal upper limit drugs during the third quarter of
                                   2004. Assuming spending in the following three quarters would be
                                   similar to the previous quarter, basing Federal upper limit amounts on
                                   150 percent of the lowest reported AMP rather than 150 percent of the
                                   lowest published price could save Medicaid up to $1.2 billion per year.




                                   9 All savings in this report represent estimates for 42 States and the District of Columbia

                                     only. We did not perform calculations for eight states without third-quarter data.
                                   10 The President’s 2006 budget recommends using 106 percent of ASP as the basis for

                                     Medicaid drug reimbursement, an identical method to Medicare Part B. The ASP for
                                     most of the drugs included in this review are not provided to CMS since they are not
                                     covered under Medicare Part B.



    O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   9
F    I N D I N G                    S

                   Table 1: Potential Savings Based on Average AMP for 20 Drugs With Highest Reimbursement

                                                                                Medicaid Reimbursement                               Savings at 150% of
                   Generic Name                                                    7/1/2004 - 9/30/2004                                  Average AMP
                   Albuterol aerosol 90 mcg/act                                        $16,391,640                                         $12,105,942
                   Metformin HCl tab 500 mg                                            $13,430,697                                          $6,354,068
                   Fluoxetine HCl cap 40 mg                                                $9,292,817                                       $6,711,161
                   Tramadol HCl tab 50 mg                                                  $8,921,358                                       $5,141,661
                   Tizanidine HCl tab 4 mg                                                 $7,785,526                                       $4,286,990
                   Ranitidine HCl tab 150 mg                                               $7,570,846                                       $5,954,356
                   Albuterol sulfate solution 0.083%                                       $7,180,644                                       $3,553,728
                   Lorazepam tab 1 mg                                                      $6,409,259                                       $4,204,818
                   Lisinopril tab 20 mg                                                    $6,358,915                                       $3,590,489
                   Hydrocodone-acetaminophen tab 10-500 mg                                 $5,873,425                                       $3,099,228
                   Hydroxyzine HCl tab 25 mg                                               $5,737,177                                        -$555,585
                   Amiodarone HCl tab 200 mg                                               $5,550,813                                       $3,759,315
                   Propoxyphene-N w/APAP tab 100-650 mg                                    $5,464,571                                        $109,935
                   Famotidine tab 20 mg                                                    $5,428,734                                       $4,474,399
                   Lisinopril tab 10 mg                                                    $5,373,003                                       $2,752,882
                   Lisinopril tab 40 mg                                                    $5,164,975                                       $2,527,996
                   Baclofen tab 10 mg                                                      $5,116,346                                       $2,347,817
                   Lovastatin tab 40 mg                                                    $5,007,263                                       $2,808,319
                   Lorazepam tab 0.5 mg                                                    $4,934,603                                       $2,601,946
                   Cephalexin cap 500 mg                                                   $4,670,980                                       $2,492,166
                        Total                                                          $141,663,592                                        $78,321,631
                   Source: Third-Quarter 2004 CMS Federal Upper Limit and AMP Data; OIG Analysis, April 2005.




    O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S          10
                     The Centers for Medicare & Medicaid Services should work with
                      Congress to set Federal upper limit amounts that more closely
                      approximate acquisition costs.
                     In the past several months , the President , Congress , and individual
                     Medicaid State agencies have expressed renewed interest in reducing
                     excessive Medicaid reimbursement for prescription drugs. The original
                     purpose of the Federal upper limit program was to do just that by
                     allowing Medicaid to take advantage of current market prices for
                     generic drugs. However , the applicable regulation requires Federal
                     upper limit amounts to be based on prices published in the national
                     drug compendia. As studies by the Offce of Inspector General and
                     numerous other entities have shown , published prices for many
                     products bear little or no resemblance to the actual prices paid by
                     providers. Because the already inflated published prices are multiplied
                     by 150 percent when calculating Federal upper limit amounts , Medicaid
                     reimbursement for qualified products has the potential to greatly exceed
                     acquisition costs. The findings of this report further ilustrate this
                     point.
                     We understand that pharmacies need to make some profit from the
                     drugs they supply. In addition , we realize that reimbursement
                     amounts should be suffcient to provide pharmacies with incentives to
                     dispense lower cost generic drugs rather than the more expensive
                     brand name versions. However , that Federal upper limit amounts are
                     typically 5 times higher (and as much as 19 times higher) than the
                     average AMP seems excessive.
                     Therefore , we recommend that CMS work with Congress to set
                     Federal upper limit amounts that more closely approximate
                     acquisition costs. At a time when States are trying to more effectively
                     allocate resources due to shrinking Medicaid budgets , revised Federal
                     upper limit laws and regulations would allow States and the Federal
                     Government to share in the cost savings that should be associated
                     with lower priced generic drugs. Subsequently, these cost savings
                     should help States to continue providing needed care to Medicaid
                     beneficiaries.
                     Agency Comments
                     CMS concurred with our recommendation , stating that Congress
                     should take action to ensure that Medicaid reimbursement amounts
                     more closely relate to actual transaction prices. CMS notes that

OEI- 03. 05. 00110   COMPARISON OF FEDERAL UPPER LIMIT AMOUNTS TO AVERAGE MANUFACTURER PRICES
R    E C O                  M M E N D A T                         I O N

                                   Congress recently acted to reform Medicare’s payment methodology
                                   for prescription drugs based on similar pricing issues, and goes on to
                                   state, “Congress should now enact similar legislation to ensure that
                                   Medicaid payment for drugs is related to actual prices paid by
                                   pharmacies.” The full text of CMS’s comments is presented in
                                   Appendix B.
                                   OIG Response
                                   OIG appreciates CMS’s comments on this report, and looks forward to
                                   assisting CMS and Congress in their efforts reform Medicaid’s current
                                   reimbursement methodology.




    O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   12
Δ       A P P E N D I X                                       ~      A       



                               METHODOLOGY
                               Identifying Drugs on the Federal Upper Limit List.
                               We obtained a list of drugs subject to Federal upper limits as of the
                               third quarter of 2004 from the CMS Web site. At that time, 419 drug
                               products (i.e., individual dosage forms and sizes of a generic drug
                               ingredient) were included on the Federal upper limit list.

                               Using data obtained from the publisher of a national drug compendium,
                               we compiled a list of all the national drug codes (NDC) associated with
                               generic versions of each of the 419 drug products. Each individual drug
                               product manufactured or distributed in the United States has a unique
                               NDC. An NDC identifies the manufacturer or labeler of the drug
                               product, the product dosage form, and the package size. For each NDC,
                               compendia provide published prices (usually average wholesale prices
                               and wholesale acquisition costs), manufacturer information, and FDA
                               therapeutic equivalency data. The compendia also identify whether the
                               individual drug product is a brand name or generic version. According
                               to the compendium used in our analysis, 2 of the 419 drug products on
                               the Federal upper limit list did not have any matching generic NDCs.
                               The remaining 417 drug products were represented by 17,945 generic
                               NDCs.
                               Obtaining Medicaid Utilization Data.
                               To ensure that the comparisons between Federal upper limit amounts
                               and AMPs were meaningful, we verified that all products upon which
                               the comparisons were based had actually been reimbursed by Medicaid.
                               We downloaded 50 State Medicaid payment and utilization files for
                               2004 from CMS’s Web site.11 Each file contained variables representing
                               total State reimbursement, number of units reimbursed, and number of
                               prescriptions written for every NDC by calendar quarter.

                               We limited our analysis to utilization occurring in the third quarter of
                               2004. CMS had third-quarter utilization figures available for 42 States
                               and the District of Columbia.12 Of the 17,945 NDCs subject to



                               11 Arizona’s data were not available for download because the State’s drug benefit is
                                   administered completely through managed care organizations and not the traditional
                                   fee-for-service system.
                               12 The seven States without third-quarter data on CMS’s Web site were Colorado, Georgia,
                                   Kansas, Louisiana, Ohio, Vermont, and Washington.



O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   13
A    P      P E N D                I X ~           A

                                   Federal upper limits, 4,699 had Medicaid utilization in the third quarter
                                   of 2004.

                                   The total State reimbursement amount listed in the State utilization
                                   files included both the payments made for the NDC and the dispensing
                                   fees paid to the pharmacy. To determine a State’s reimbursement for
                                   only the drug product during the third quarter of 2004, we:

                                   (1) 	 calculated the total amount paid in dispensing fees for the NDC by
                                         multiplying the State’s dispensing fee by the number of
                                         prescriptions written for the NDC in each State,

                                   (2) 	 subtracted total dispensing fees from the total reimbursement for
                                         the NDC in each State,

                                   (3) 	 aggregated reimbursement (net of dispensing fees) and the
                                         number of units reimbursed for each NDC for all States, and

                                   (4) 	 summarized the data from step 3 to obtain reimbursement and
                                         utilization totals for each of the 417 drug products.

                                   We then calculated the average Medicaid reimbursement amount for
                                   each of the drugs by dividing the total reimbursement for the product
                                   (without the dispensing fee) by the total number of units reimbursed.
                                   Determining AMPs for Drugs Subject to Federal Upper Limits.
                                   We obtained third-quarter 2004 AMP data from CMS. We matched the
                                   AMP data with the Medicaid utilization data to verify that all products
                                   on which the comparisons would be made had actually been reimbursed
                                   by Medicaid. We determined that 4,526 NDCs that were subject to
                                   Federal upper limits appeared on both the AMP file and Medicaid
                                   utilization files that quarter.

                                   Federal regulations require that the prices on which Federal upper limit
                                   amounts are based be for therapeutically equivalent (A-rated) products
                                   in common package sizes. Therefore, we removed from the analysis any
                                   NDCs that represented drug products that were not A-rated. At this
                                   point, we removed another drug from the analysis because the drug did
                                   not have any A-rated versions with third-quarter 2004 utilization. For
                                   the 416 remaining drug products, we determined the most common
                                   package size listed in the compendia. We removed from our analysis
                                   any NDCs that did not match this package size. We then determined
                                   the minimum, average, and maximum AMPs for the remaining NDCs
                                   for each of the 416 drug products. We did not verify that the AMPs
                                   reported to CMS were correct.



    O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   14
A    P      P E N D                I X ~           A

                                   Comparing Federal Upper Limit Amounts to AMPs.
                                   We compared third-quarter 2004 Federal upper limit amounts to the
                                   third-quarter 2004 AMPs. We first ensured that the unit (i.e., tablet,
                                   gram, etc.) upon which the Federal upper limit was based equaled the
                                   unit amount upon which AMP was based. For one product, the unit
                                   differed significantly and we could not readily determine an appropriate
                                   conversion factor. This drug product was removed from the analysis,
                                   leaving 415 products in our review.

                                   We calculated the percentage difference between the Federal upper
                                   limit amount and the minimum, average, and maximum AMP for each
                                   of the 415 drug products. We then calculated an overall percentage
                                   difference weighted by Medicaid reimbursement. We will not report the
                                   actual dollar differences between the Federal upper limit amounts and
                                   AMPs for individual drug products due to confidentiality issues.
                                   Estimating Potential Savings.
                                   To determine the potential savings of using AMPs rather than
                                   published prices to set Federal upper limit amounts, we:

                                   (1)	       multiplied the minimum and average AMPs for the 415 drugs on
                                              the Federal upper limit list by 150 percent (consistent with
                                              current regulation),

                                   (2)	       subtracted 150 percent of the minimum and average AMPs from
                                              the average Medicaid reimbursement amount in the third quarter
                                              of 2004, and 13
                                   (3) 	 multiplied the difference calculated in step 2 by the number of
                                         units of the drug product reimbursed during the time period.



                                   This evaluation was conducted in accordance with the “Quality
                                   Standards for Inspections” issued by the President’s Council for
                                   Integrity and Efficiency and the Executive Council for Integrity and
                                   Efficiency.



                                   13 In calculating potential savings, we used average Medicaid reimbursement amounts

                                       rather than Federal upper limit amounts. Because of State maximum allowable cost
                                       programs, some States may reimburse substantially less than the Federal upper limit
                                       amount for certain drugs. Therefore, using Federal upper limit amounts in our
                                       calculations would tend to exaggerate potential savings. Using average Medicaid
                                       reimbursement amounts provides a much more accurate estimate of the potential
                                       savings.



    O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   15
Δ       A P P E N D I X                                      ~       B       



         Comments from the Centers for Medicare & Medicaid Services




O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   16

A    P      P E N D                I X ~           B           





    O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   17

A    P      P E N D                I X ~           B           





    O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   18

Δ       A C K N O W L E D G M E N T S                                                                   

                               This report was prepared under the direction of Robert A. Vito, Regional
                               Inspector General for Evaluation and Inspections in the Philadelphia
                               regional office, and Linda M. Ragone, Deputy Regional Inspector
                               General. Other principal Office of Evaluation and Inspections staff who
                               contributed include:

                               David Tawes, Team Leader
                               Linda Boone Abbott, Program Specialist




O E I - 0 3 - 0 5 - 0 0 11 0   C O M PA R I S O N   OF   FEDERAL UPPER LIMIT AMOUNTS   TO   AV E R A G E M A N U F A C T U R E R P R I C E S   19
